  Hotline Review         January 10, 2012

Hotline Complaint Concerning Inadequate Audit
  Services Provided by an Audit Team in the
      Defense Contract Audit Agency
            Mid-Atlantic Region

       Report No. DODIG-2012-038
Additional Copies
The Department of Defense, Office of the Assistant Inspector General for Audit Policy
and Oversight, prepared this report. To obtain copies of the report, visit the Web site of
the Department of Defense Inspector General at www.dodig.mil/audit/reports, or contact
the Office of the Assistant Inspector General for Audit Policy and Oversight at (703) 604-
8760 or fax (703) 604-8982.
.

Suggestions for Reviews
To request future reviews, contact the Office of the Assistant Inspector General for Audit
Policy and Oversight at (703) 604-8760 (DSN 664-8760) or fax (703) 604-8982.
Requests can also be mailed to:

                      Office of the Assistance Inspector General
                      for Audit Policy and Oversight
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 837)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ACO            Administrative Contracting Officer
CACWS          Cumulative Allowable Cost Worksheet
DCAA           Defense Contract Audit Agency
DACO           Divisional Administrative Contracting Officer
DCMA           Defense Contract Management Agency
FAR            Federal Acquisition Regulation
GAGAS          Generally Accepted Government Auditing Standards
Report No. DODIG-2012-038 (Project No. D2010-DIP0AI-0069.000)                 January 10, 2012


              Results in Brief: Hotline Complaint
              Concerning Inadequate Audit Services
              Provided by an Audit Team in the Defense
              Contract Audit Agency, Mid-Atlantic Region
                                                       •   consider appropriate administrative
   What We Did                                             action for the improper cancelation of a
   We reviewed a DOD Hotline complaint                     progress payment review; and
   alleging that a Defense Contract Audit              •   develop procedures covering the
   Agency (DCAA) audit team in the Mid-                    preparation of audit leads.
   Atlantic Region failed to provide adequate
   audit services.                                     We recommend that the Director, DCMA
                                                       consider appropriate administrative action
                                                       for a contracting official who requested that
   What We Found                                       DCAA cancel an audit without having such
   We substantiated two of three allegations           authority.
   listed in the complaint. We substantiated
   that the DCAA audit team:                           Management Comments
   • provided inadequate audit assistance in
        closing contracts by not reviewing final       and Our Response
        vouchers in a timely manner; and               The management comments were responsive
   • inappropriately canceled its review of a          to all recommendations. Of the nine
        progress payment based on direction            recommendations addressed to DCAA, the
        from another contracting officer who did       Director, DCAA concurred with 6 and did
        not have the authority to cancel it.           not concur with three. However, regarding
                                                       the 3 non-concurrences, the Director, DCAA
   We did not substantiate a third allegation          proposed alternative actions which were
   that the DCAA audit team failed to perform          responsive to the recommendations. Among
   a requested estimating system audit.                them, the Director, DCAA agreed to assess
                                                       its current prioritization of performing final
   What We Recommend                                   voucher reviews and take action consistent
                                                       with the assessment and available staffing.
   DCAA management should:
   • ensure timely completion of final                 The Director, DCMA concurred with all
     voucher reviews by the audit team;                three recommendations addressed to
   • meet with the Defense Contract                    DCMA. For example, the Director, DCMA
     Management Agency field office at least           agreed to consider appropriate
     monthly to discuss the status of the audit        administrative action and reinforced to
     team’s final voucher reviews;                     contracting officers that they should not take
   • reassess its priorities on an agency-wide         action which is beyond their authority.
     basis to ensure that auditors complete            Please see the recommendations table on the
     final voucher reviews in sufficient time          following page.
     to close contracts within Federal
     Acquisition Regulation timeframes;



                                                   i
Report No. DODIG-2012-038 (Project No. D2010-DIP0AI-0069.000)          January 10, 2012

                           Recommendations Table

             Management                    Recommendations        No Additional
                                          Requiring Comment     Comments Required
Director, Defense Contract Audit Agency          None           A.1.a; A.1.b.; B.1.a.;
                                                                   B.1.b.; B.1.c.
Director, Defense Contract Management           None                B.2.a; B.2.b.
Agency
Commander, Defense Contract                     None                     A.2.
Management Agency Field Office
Field Audit Office Manager, Defense             None            A.3.a,; A.3.b.; B.3.a.;
Contract Audit Agency                                                   B.3.b.




                                           ii
Table of Contents

Introduction                                                                 1

      Objectives                                                             1
      Background                                                             1

Finding A. DCAA Audit Team Did Not Provide Timely Assistance in the
Closeout of Contracts                                                        3

      Recommendations, Management Comments, and Our Response                 5

Finding B. DCAA Inappropriately Canceled a Request for a Progress Payment
Review                                                                       8

      Recommendations, Management Comments, and Our Response                11

Finding C. Alleged DCAA Audit Team Failure to Perform a Requested
Estimating System Audit                                                     14

Appendix

      Scope and Methodology                                                 15

Management Comments

      Defense Contract Audit Agency                                         17
      Defense Contract Management Agency                                    20
                                       Introduction
Objectives
We conducted this review to determine the validity of a DOD Hotline complaint alleging
that an audit team in the Defense Contract Audit Agency Mid-Atlantic Region failed to
provide effective audit services to Defense Contract Management Agency. The
complainant specifically alleged that the audit team:

    A. does not provide timely assistance to a DCMA field office in the closeout of
       contracts;
    B. improperly canceled a review of a progress payment requested by an
       administrative contracting officer; and
    C. failed to perform an audit of an estimating system that might have resulted in
       corrective actions to the contractor’s estimating system.

See the Appendix for details of our scope and methodology.

Background
Defense Contract Audit Agency (DCAA)
In accordance with DOD Directive 5105.36, DCAA performs contract audits and
provides accounting and financial advisory services in connection with the negotiation,
administration and settlement of DOD contracts and subcontracts. DCAA operates under
the authority, direction, and control of the Under Secretary of Defense (Comptroller).

Organizationally, DCAA includes a Headquarters, Field Detachment, and five regions:
Central, Eastern, Mid-Atlantic, Northeastern, and Western. Each region maintains
several field audit offices, and each field office is comprised of multiple audit teams. A
field audit office manager oversees each field audit office, and a supervisor leads each
audit team. The allegations addressed in this report involved an audit team assigned to a
field audit office in the Mid-Atlantic Region 1.

As a government audit organization, DCAA must comply with applicable generally
accepted government auditing standards (GAGAS) issued by the Comptroller General of
the United States. GAGAS incorporates the standards issued by the American Institute of
Certified Public Accountants.

The DCAA Contract Audit Manual prescribes auditing policies and procedures for
auditors to follow when performing audits. The Contract Audit Manual incorporates
GAGAS into its guidance.



1
 Although most of the events covered in this report occurred while the audit team was assigned to the Mid-
Atlantic Region, the audit team was later reassigned to the Northeastern Region in August 2010 as part of a
pilot project.



                                                    1
Defense Contract Management Agency (DCMA)
DCMA works directly with DOD contractors to help ensure that DOD, Federal, and
allied government supplies and services are delivered on time, at projected cost, and meet
all performance requirements. The Agency serves as the in-plant representative for DOD
buying agencies, and administers more than 300,000 active government contracts.

DCMA administrative contracting officers (ACOs) are responsible for several contract
administrative functions, such as closing out contracts, determining the allowability of
claimed costs, and assessing the adequacy of the DOD contractor’s major business
systems (for example, the contractor’s estimating, and accounting systems). DCAA
issues audit reports and provides other accounting advice to ACOs in connection with
those responsibilities.




                                             2
Finding A. DCAA Audit Team Did Not
Provide Timely Assistance in the Closeout of
Contracts
We substantiated an allegation that the DCAA audit team did not provide timely
assistance to a DCMA field office in the closure of contracts. The audit team considers
its review of final vouchers as a low-priority review. In addition, the audit team failed to
communicate effectively with the DCMA field office in discussing the status of the final
voucher reviews and addressing barriers for completing them. The DCAA audit team
should complete final vouchers reviews in a timely manner and meet with the DCMA
field office at least monthly.

Allegation
The complainant alleged that the DCAA audit team does not provide timely assistance to
DCMA in the contract closeout process and declines to prepare a Cumulative Allowable
Cost Worksheet to facilitate the closeout process.

Background
Contract closeout is a process that takes place after a contractor satisfies its contractual
obligations. As part of the process, DOD contractors submit a final voucher to DCMA
which includes total cost incurred and fees due under the contract. In turn, DCMA
forwards the final voucher to DCAA in order to verify that the claimed costs and fee are
allowable and comply with the terms of the contract. Final voucher reviews can be
performed in a relatively short timeframe because, prior to receiving the final voucher,
DCAA has already determined the amount of allowable costs under the contract based on
earlier audits.

DCAA Contract Audit Manual, chapter 6-1009.3, requires the auditor to complete final
voucher reviews in sufficient time to permit the DCMA contracting officer to close out
contracts within the time standards specified in FAR 4.804. FAR part 4.804-1(a)(3)
establishes specific time periods for closing out contracts depending on the
circumstances. For example, contracts requiring settlement of indirect rates should be
closed within 36 months after physical contract completion. Since several other contract
actions must take place before and after DCAA’s review of the final voucher, DCAA
should review the voucher in a timely manner which permits the ACO sufficient time to
close out contracts within the FAR specified timeframes.

A Cumulative Allowable Cost Worksheet (CACWS) summarizes allowable costs for
flexibly- priced contracts and serves as a tool to expedite contract closeout. According to
DCMA policy, contracting officers should encourage DOD contractors to prepare the
worksheet and provide them to DCAA to facilitate its review of final vouchers.




                                             3
Our Review
Untimely Audit Team Review of Final Vouchers
We examined a list of final vouchers that DCMA asked the DCAA audit team to review
between January 2010 and January 2011. During this period, the audit team received 128
final vouchers for review and, as of May 2011, had completed 24 of those reviews. On
average, the audit team took 8 months to complete the reviews. The remaining 104
vouchers had been awaiting DCAA review completion for an average of 8 months.

Taking 8 months or more on average to complete a final voucher review is unacceptable,
especially considering that these reviews take a relatively short amount of time to
complete. In some cases, the delays jeopardized the ACO’s ability to finish the closeout
process within the timeframes specified in FAR 4.804-1(a)(3). Furthermore, the DCAA
audit team delays have resulted in funds being canceled on some contracts. When
contract funds are canceled, they are no longer available for paying amounts due under
the contract. As a result, DOD components must use current-year appropriations to pay
out the amounts due, thereby reducing the funds available for planned acquisitions. Our
review disclosed that $11,938 in contract funds had canceled while awaiting a DCAA
final voucher review in FY 2010, and $110,126 in contract funds were due to cancel in
FY 2011.

Members of the DCAA audit team stated that the final voucher reviews were untimely
primarily because the reviews were placed at the bottom of the team’s priority list, in
accordance with DCAA regional office guidance they received. The audit team also cited
the following other barriers for timely completing the reviews:

   •   The audit team is understaffed.
   •   The contractor did not adequately list the contracts’ terms and conditions for some
       of the vouchers.
   •   The auditor is awaiting supporting documentation for claimed costs included in
       some final vouchers.

The DCAA field audit office manager, in conjunction with the DCAA regional office,
should work on eliminating these barriers to the extent possible. Any remaining barriers
which are beyond the control of DCAA to eliminate (such as the contractor not providing
supporting documentation in a timely manner) should be immediately brought to the
attention of the ACO.

We noted that the DCAA audit team did not keep the ACO adequately apprised on the
status of the final voucher reviews or the barriers it encountered in completing the
reviews. The ACO had to periodically ask DCAA for a status of the reviews after
waiting for the review results for several months. We suggest that DCAA field audit
office manager meet with the DCMA field office at least monthly to discuss the status of
the final voucher reviews and to alert the ACO of any barriers for timely completing
them.




                                            4
Occurrences of untimely final voucher reviews could be widespread since at least one of
the DCAA regional offices designated final voucher reviews as low priority. DCAA
should assess the timeliness of final voucher reviews on an agency-wide basis and take
appropriate action based on that assessment.

DCAA Audit Team Preparation of a Cumulative Allowable Cost
Worksheet (CACWS)
While we established that the DCAA audit team has not prepared a CACWS, we also
found no regulation that requires DCAA to prepare one.

Some DOD contractors submit the CACWS as a schedule in the contractor’s incurred
cost submission, since contractors are responsible for maintaining records of cumulative
allowable costs by contract/delivery order. We noted that this DOD contractor does not
prepare a CACWS. Like DCAA, however, we found no regulation requiring the
contractor to prepare a CACWS. Nevertheless, contractors should be encouraged to do
so because of the benefits and efficiencies gained by DOD and the contractor in closing
contracts. DCMA’s Contract Closeout Guidebook states;

              ACOs should encourage contractors to submit a CACWS with their
              annual indirect cost rate proposal for audit by DCAA and update it
              within a reasonable time after rate settlement. The Contractor's ability
              to track cumulative allowable cost by contract is essential for an
              adequate billing system and necessary to ensure that cumulative
              amounts billed do not exceed total estimated contract cost ceilings.

Consistent with the above guidance, the DCMA field office should continue to encourage
that the contractor submit a CACWS in order to facilitate the closure of contracts.

Recommendations, Management Comments, and Our
Response
A.1. We recommend that the Director, Defense Contract Audit Agency:

     a. Assess the timeliness of final voucher reviews on an agency-wide basis and
        take action to ensure the timeliness of the reviews.

         DCAA Comments: The DCAA Director did not concur but agreed to take
         “alternative” action. The Director pointed out that the field audit office handled
         final voucher reviews as lower priority work in accordance with established
         agency-wide priorities at the time. The Director stated that that the need for
         DCAA services far exceeded available staffing; therefore, an Agency-wide risk-
         based audit approach was required to ensure audit resources were spent on the
         higher risk effort to best protect taxpayer dollars.

         However, by January 31, 2012, the Director agreed to assess the Agency-wide
         prioritization of performing final voucher reviews as part of the Agency’s
         incurred cost initiative, so that that the risks related to those reviews are
         properly considered in the Agency's overall risk assessments.


                                                 5
        Our Response: While the Director, DCAA did not concur, his plan to assess
        the agency-wide prioritization of performing final voucher reviews is consistent
        with, and is responsive to the intent of, the recommendation. Accordingly, no
        additional response to this recommendation is required.

     b. Provide the Office of Audit Policy and Oversight with the results of the
        assessment and actions taken in response to Recommendation A.1.a.

        DCAA Comments: The Director, DCAA concurred. By February 24, 2012,
        DCAA will provide the results of the assessment and actions taken in response
        to Recommendation A.1.a.

A.2. We recommend that the Commander of the Defense Contract Management
Agency field office remind contracting officers that they should encourage DOD
contractors to prepare a Cumulative Allowable Cost Worksheet, in accordance with
the Defense Contract Management Agency Contract Closeout Guidebook.

        DCMA Comments: The Director, DCMA concurred. In a December 8,
        2011, Information Memorandum signed by the Executive Director of Contracts,
        DCMA reminded the agency’s contracting community that they should
        encourage DOD contractors to prepare a CACW.

        Our Response: The action satisfies the intent of the recommendation. No
        additional response to this recommendation is required.

A.3. We recommend that the field audit officer manager of the Defense Contract
Audit Agency audit team:

     a. Ensure that the team completes final voucher reviews in a timely manner.

        DCAA Comments: The Director, DCAA did not concur but agreed to take
        “alternative” action. The Director stated the field audit office manager will
        execute final voucher reviews based on available staffing and the agency-wide
        assessment being performed in response to Recommendation A.1.a. The field
        audit office manager will make changes to the work priorities based on the
        assessment.

        Our Response: The proposed alternative action is responsive to the intent of
        the recommendation. No additional response to this recommendation is
        required.

     b. Meet with the Defense Contract Management Agency field office at least
        monthly in FY 2012, in order to discuss the status of final voucher reviews
        and any barriers to completing them timely.




                                           6
DCAA Comments: The Director, DCAA concurred. The field audit office
manager and/or his chain of command will meet with DCMA to discuss all
efforts (to include final voucher reviews) to ensure a complete understanding of
each Agency's priorities based on available staffing. In order to discuss these
Agency priorities, additional meetings may take place between more senior
levels of management within DCAA and DCMA.

Our Response: The planned action is responsive to the intent of the
recommendation. No additional response to this recommendation is required.




                                   7
Finding B. DCAA Inappropriately Canceled a
Request for a Progress Payment Review
We substantiated the allegation that a DCAA audit team inappropriately canceled a
progress payment review that a DCMA ACO requested. The DCAA supervisor of the
audit team canceled the audit based on direction from a Divisional Administrative
Contracting Officer who did not have the authority to cancel it.

Allegation
The complainant alleged that DCAA improperly canceled a request for a progress
payment review, without the knowledge or consent of the ACO who requested the
review.

Background
Progress payments are a form of financing often available to contractors as work
progresses on a Government contract. In May 2008, the DCMA ACO received a
progress payment request from a DOD contractor and discovered that the request
included $19,667 in government-furnished material costs. Since government-furnished
materials are provided at no cost, the contractor should not have requested payment for
them. On June 23, 2008, the ACO informed the contractor about the inclusion of
government-furnished material costs, and the contractor withdrew its progress payment
request the next day.

On July 2, 2008, following the withdrawal of the progress payment request, the ACO
asked DCAA to conduct a review of the request. The DCAA audit team established an
assignment to perform the audit. The ACO met with criminal investigators to report
suspected irregular conduct on the part of the contractor for including the government-
furnished materials in the request. At that time, the investigators elected to wait for the
results of the DCAA progress payment audit before they decided whether to open a
formal investigation.

On September 30, 2008 (3 months later), DCAA canceled its audit of the progress
payment based on direction from another DCMA contracting officer assigned to the
contractor’s divisional headquarters office (known as the Divisional Administrative
Contracting Officer [DACO]). On October 8, 2008, the ACO emailed DCAA to dispute
the cancelation and to request that DCAA continue performing the audit. DCAA did not
continue performing the audit as requested. On October 29, 2008, the investigators
advised the ACO that there was insufficient evidence of an impropriety to warrant
opening a formal investigation.

Our Review
We conducted several interviews with DCAA and DCMA employees who were involved
with the requested progress payment audit. We placed most of the interviewees under
oath, we recorded the interviews, and we obtained a transcription of the recordings. We



                                              8
also obtained and reviewed applicable agency records (including emails). In addition, we
reviewed applicable regulations and agency procedures.

According to Federal Acquisition Regulation (FAR) 32.503-4(b), the cognizant ACO has
the authority to request an audit of a DOD contractor’s progress payment under certain
circumstances. For example, the ACO should ask for an audit of a progress payment
when there is reason to question the contractor’s progress payment certification. FAR
42.101 states that the contract auditor (DCAA) is responsible for submitting information
and advice to the requesting activity.

As the duly appointed contracting officer, the ACO had the authority to request an audit
of the contractor’s progress payment, particularly since the ACO had legitimate concerns
about its accuracy. Based on our review of applicable regulations and DCMA
procedures, the DACO was not authorized to request that DCAA cancel the audit. Such
direction was inappropriate because the DACO was not the cognizant contracting officer
or a member of the activity (office) that requested the audit. The DACO should have
known that he did not possess such authority. Likewise, the DCAA supervisor
responsible for performing the audit should have known not to act on the DACO’s
direction. Both the DACO and the DCAA supervisor had in excess of 20 years of
experience in their respective positions. DCMA and DCAA should consider appropriate
administrative action for the unauthorized actions, and implement appropriate procedures
and training to help prevent future occurrences.

The ACO indicated that neither the DCAA supervisor nor the DACO talked to him about
their plan to cancel the audit he had requested. The DCAA supervisor pointed out that he
could not perform the audit because the contractor had withdrawn the progress payment
request. According to the DCAA supervisor, he had attempted to convince the ACO on
several occasions that the audit should be canceled, but the ACO refused to do so.
However, the DCAA supervisor acknowledged that he (or his higher level management)
made no attempt to resolve the matter with the ACO’s chain of command before he
canceled the audit.

Regardless of whether the DCAA supervisor felt the review should be canceled, he had a
responsibility to effectively communicate with the ACO (audit requester) and to
document those communications. Our review of the DCAA audit file disclosed no
written evidence that he had contacted the ACO to explain why the audit should be
canceled. The field audit office manager approved the cancelation of the audit based in
part on an undocumented assertion from the DCAA supervisor and the auditor that the
audit cancelation had been coordinated with the ACO.

We noted other examples where the DCAA supervisor did not effectively communicate
with the ACO before and after he canceled the audit. For example, the DCAA supervisor
did not respond to the ACO’s September 15, 2008, email in which the ACO asked him
whether the audit would include a reconciliation of the progress payment request to the
contractor’s books and records. In addition, there is no evidence that the DCAA
supervisor responded to the ACO’s October 8, 2008, email in which the ACO disputed




                                           9
the DACO’s authority and requested that the DCAA supervisor continue performing the
audit.

Recent DCAA Management Actions
GAGAS and DCAA policies and procedures emphasize the need to communicate
effectively with the audit requester during the course of an audit. In addition, we noted
that DCAA took the following recent actions:

   •   In August 2010, DCAA added the following guidance to chapter 1-403.3c. of the
       DCAA Contract Audit Manual, to clarify the guidance for resolving differences of
       opinion with contracting officers:

               Auditors should discuss all significant disagreements (i.e., not limited
               to forward pricing) with the contracting officer and should attempt to
               resolve the issues at the lowest level possible. Should those discussions
               not result in a resolution, the process would begin with the Branch
               Manager discussing the basis for DCAA’s disagreement with the
               contracting officer’s higher-level management. If unresolved, the
               disagreement should continue to be elevated. Ultimately, the Regional
               Director should attempt to resolve the disagreement with the
               Component’s Senior Executive or Flag Officer in the contracting
               officer’s chain of command….

   •   In a September 9, 2010, memorandum, “Auditor Guidance on Auditor
       Communications (‘The Rules of Engagement’),” DCAA Headquarters reiterated
       and clarified existing guidance on coordinating and communicating with the
       requester during each phase of the audit.

   •   In June 2011, DCAA added the following paragraph to chapter 4-102d of the
       DCAA Contract Audit Manual:

               Throughout each audit assignment maintain effective communication
               with Government contract administration personnel on significant
               matters, as necessary. Such communication alerts officials to matters
               needing immediate attention and allows them to take corrective action
               before the final report is completed. Document all discussions in the
               working papers, including date, participants’ names and titles, and
               primary discussion points.

These actions should help to ensure that DCAA audit staff maintain and document
effective communications with contracting officers, and resolve disagreements with
contracting officers in an appropriate manner. As a result, we have no additional
recommendations for improving DCAA procedures related to auditor communications.




                                                 10
Other Matter
DCAA auditors use an “audit lead” form to document information or a potential
deficiency they discover that might require additional follow-up in another related audit
assignment. In planning the related audit assignment, the audit lead form serves to alert
the auditor of the information or potential deficiency and to conduct any audits steps
necessary to properly consider it.

We found that neither the DCAA supervisor nor the auditor prepared an audit lead form
after they learned that the contractor had included costs associated with government-
furnished materials in its progress payment request. An audit lead form should have been
prepared because this information was a strong indicator that the contractor’s billing
system might not have adequate controls for ensuring that billings to the Government
exclude costs associated with government furnished materials. The audit lead form
would have served to advise an auditor performing a related audit (such as a billing
system audit) of the potential deficiency and to plan audit steps necessary to protect the
Government’s interests.

The DCAA supervisor explained that an audit lead form was not prepared because (1) the
progress payment review was canceled, and (2) the information was obtained from an
external source [DCMA in this case]. However, an audit lead form should have been
prepared regardless of whether the audit was canceled or the information was obtained
from an external source. The audit team should immediately prepare an audit lead form
to ensure that the potential deficiency receives appropriate consideration in a related
audit.

Based on the DCAA supervisor’s explanation, there might be some confusion with
respect to the auditor’s responsibility for preparing audit lead forms. Our review of
applicable DCAA procedures disclosed essentially no DCAA procedures covering the
duties and responsibilities for preparing audit lead forms. DCAA needs to prepare such
procedures to help ensure that auditors prepare audit lead forms when necessary.

Recommendations, Management Comments, and Our
Response
B.1.   We recommend that the Director, Defense Contract Audit Agency:

       a. Consider appropriate administrative action for the inappropriate
          cancelation of a progress payment review based on direction from a
          contracting official who did not have proper authority.

           DCAA Comments: The Director, DCAA concurred. According to the
           Director, the Agency carefully reviewed the actions of the field audit office
           personnel and concluded that the actions do not warrant administrative action.
           Since this incident, DCAA has implemented significant changes to its
           guidance on coordinating with Government contracting officials and resolving
           differences of opinion.



                                            11
          Our Response: The action satisfies the intent of the recommendation. No
          additional response to this recommendation is required.

       b. Implement procedures and training to help ensure that audits are
          canceled only when the requesting activity asks that it be canceled.

          DCAA Comments: The Director, DCAA did not concur. DCAA believes
          that the root cause of these issues relates to effective communication, and as
          the DOD Inspector General noted, DCAA has implemented several
          procedures to improve communications with our stakeholders.

          Our Response: We agree with DCAA that the procedures it has recently
          implemented should satisfy the intent of the recommendation. No additional
          response to this recommendation is required.

       c. Develop policies and procedures covering the duties and responsibilities
          for preparing audit lead forms.

          DCAA Comments: The Director, DCAA concurred. By February 24,
          2012, DCAA will issue guidance regarding audit leads. The guidance will
          address when to prepare an audit lead, proper supervisory review, appropriate
          follow-up procedures in the current or future assignments, and final
          disposition.

          Our Response: The planned action is responsive to the recommendation.
          No additional response to this recommendation is required.

B.2.   We recommend that the Director, Defense Contract Management Agency:

       a. Consider appropriate administrative action for the Divisional
          Administrative Contracting Officer who improperly asked Defense
          Contract Audit Agency to cancel a progress payment audit without
          having such authority.

          DCMA Comments: The Director, DCMA concurred. The Director agreed
          that it was improper for one contracting officer to cancel another contracting
          officer’s request for audit services. Accordingly, DCMA will consider
          administrative action for the DACO.

          Our Response: The planned action is responsive to the recommendation.
          No additional response to this recommendation is required.

       b. Implement appropriate procedures and training to help ensure that
          contracting officials do not cancel an audit request without having such
          authority.




                                          12
         DCMA Comments: The Director, DCMA concurred. In a December 8,
         2011, Information Memorandum, DCMA reinforced to all DCMA contracting
         officers that they should not take actions outside their authority.

         Our Response: The action satisfies the intent of the recommendation. No
         additional response to this recommendation is required.

B.3. We recommend that the field audit office manager direct the Defense
Contract Audit Agency audit team to:

      a. Prepare an audit lead form reflecting that a DOD contractor had
         included government furnished materials in a progress payment.

         DCAA Comments: The Director, DCAA concurred. The DCAA audit
         team prepared the audit lead on October 11, 2011.

         Our Response: The action satisfies the recommendation. No additional
         response to this recommendation is required.

      b. Consider the audit lead form in a related audit.

         DCAA Comments: The Director, DCAA concurred. The DCAA audit
         team will consider the audit lead in any applicable future audits.

         Our Response: The planned action is responsive to the recommendation.
         No additional response to this recommendation is required.




                                        13
Finding C. Alleged DCAA Audit Team Failure
to Perform a Requested Estimating System
Audit
We did not substantiate the allegation that the DCAA audit team failed to perform an
estimating system audit that the ACO requested. DCAA established an assignment to
conduct an estimating system audit, but a duly-authorized successor to the contracting
officer asked DCAA to cancel it.

Allegation
The complainant stated that DCAA did not perform an estimating system audit as
requested, and that the DCAA supervisor did not forward the ACO’s audit request to the
local DCAA field audit office for assistance in accordance with DCAA procedures. The
complainant believes that performing the audit might have resulted in corrective actions
to the contractor’s estimating system.

Background
In a May 19, 2008 email, the DCMA ACO requested an audit of the contractor’s
estimating system. In the request, the ACO listed six specific areas of concern that he
asked DCAA address as part of the audit.

Our Review
We interviewed the DCMA ACO and DCAA personnel responsible for performing the
requested estimating system audit.

Our review disclosed that the DCAA audit team established an assignment to perform the
requested estimating system audit. In accordance with DCAA procedure, the DCAA
field office also requested an assist audit from another DCAA field audit office to
adequately cover the areas of concern expressed by the ACO. On January 29, 2009,
while cognizance of the contractor’s facility had temporarily changed to a successor
contracting officer, the successor contracting officer canceled the request for audit on the
basis that the audit was “no longer a priority.” Unlike the cancelation of the progress
payment discussed in Finding B of this report, the successor contracting officer had the
authority to cancel the estimating system audit. While the ACO later resumed his duties
as the contracting officer, we found no evidence that he asked DCAA to restart the audit.
The ACO was not aware that the successor contracting officer had requested DCAA to
cancel the audit.

Accordingly, we did not substantiate the allegation.




                                            14
Appendix. Scope and Methodology
We performed this review from January 2010 through July 2011. We had to suspend the
review for several months to address other priority work. To determine the validity of the
Defense Hotline complaint, we:

   •   reviewed applicable regulations, professional standards, DCMA instructions and
       DCAA policies;
   •   interviewed appropriate personnel at DCAA and DCMA; and
   •   obtained and reviewed documents, emails, and other correspondence related to the
       allegations.

We conducted the review in accordance with the Quality Standards for Inspection and
Evaluation.

Use of Computer-Processed Data
We did not rely on computer-processed data to perform this audit.

Prior Coverage
In the last 5 years, the DOD Inspector General has issued the following seven reports
involving Defense Hotline complaints involving DCAA:

   •   Report No. DODIG-2012-002, Hotline Complaint Involving Auditor
       Independence at a Field Audit Office in the Defense Contract Audit Agency
       Western Region, October 6, 2012

   •   Report No. D2011-6-011, Report on Hotline Allegation Regarding Lack of
       Agency Guidance on the Currency of Audit Testing in the Defense Contract Audit
       Agency, September 21, 2011

   •   Report No. D2011-6-010, Failure of Defense Contract Audit Agency, Santa Ana
       Branch, to Provide Adequate Support in Response to a Request for Review of
       Interim Public Vouchers, September 2, 2011

   •   Report No. D2011-6-008, Hotline Complaint Regarding a Defense Contract Audit
       Agency Employee Conducting Private for-Profit Tax Business Activity on
       Government Time and Using Government Equipment, June 28, 2011

   •   Report No. D-2011-6-007, Hotline Allegations Involving a Field Audit Office in
       the Defense Contract Audit Agency Central Region, April 15, 2011

   •   Report No. D-2011-6-003, Hotline Complaint Regarding Allegations of Abusive
       Behavior by a Supervisor in the Defense Contract Audit Agency Northeastern
       Region, February 10, 2011


                                           15
•   Report No. D-2011-6-001, Hotline Allegations Involving Management
    Harassment of a Complainant in the Defense Contract Audit Agency Western
    Region, October 29, 2010




                                     16
Defense Contract Audit Agency Comments




                    17
18
19
Defense Contract Management Agency
Comments




                    20
21
